     Department of Homeland Security




           FEMA Public Assistance Grants Awarded
              to Harrison County Library System
                      Gulfport, Mississippi




DA-12-13                                           March 2012

                                                                          Office o!Inspector General

                                                                          u.s. Department of Homeland Security
                                                                          Washington, DC 20528




                                                                          Homeland
                                                                          Security
                                             MAR 2 0 2012

MEMORANDUM FOR:



FROM:
                                     Assis ant Inspector General
                                     Office of Emergency Management Oversight

SUBJECT:                             FEMA Public Assistance Grant Funds Awarded to
                                     Harrison County Library System, Gulfport, Mississippi
                                     FEMA Disaster Number 1604-DR-MS
                                     Audit Report Number DA-12-13

We audited public assistance funds awarded to the IIarrison County Library System (Library) in
Gulfport, Mississippi (PIPS Code 047-lJUNXn..00). Our audit objective was to determine
whether the Library accounted for and expended Federal Emergency Management Agency
(FEMA) funds according to federal regulations and FEMA guidelines.

As of May 19, 2011, the Library had received a public assistance award of$6.0 million from the
Mississippi Emergency Management Agency (State), a FEMA grantee, for damages resulting
from Hurricane Katrina in August 2005. The award provided 100% FEMA funding for
replacement of contents, equipment, furniture, and interior fixtures and restoration of books
damaged as a result of the disaster. The award included 16 large projects and 5 small projects. 1

We audited 13 large projects with awards totaling $5.3 million. The audit covered the period
August 29, 2005, to May 19, 2011, during which the Library received $1.6 million of FEMA
funds under the 13 large projects. At the time of our audit, the Library had not completed work
on all projects and, therefore, had not submitted a final claim to the State for project
expenditures.

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based


I Federal regulations in effect at the time of Hurricane Katrina set the large project threshold at $55,500.
upon our audit objective. We conducted this audit applying the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed Library,
State, and FEMA personnel; reviewed the Library’s procurement policies and procedures;
reviewed applicable federal regulations and FEMA guidelines; and performed other procedures
considered necessary under the circumstances to accomplish our audit objective. We did not
assess the adequacy of the Library’s internal controls applicable to its grant activities because it
was not necessary to accomplish our audit objective. However, we gained an understanding of
the Library’s method of accounting for disaster-related costs and its policies and procedures for
administering activities provided for under the FEMA award.


                                            RESULTS OF AUDIT

The Library accounted for expenditures on a project-by-project basis, as required by federal
regulations and FEMA guidelines. However, the Library did not reduce eligible project costs by
cash and other donations received for disaster recovery purposes, which resulted in $2,420,650
of duplicated benefits. In addition, the Library overstated its funding request by $2,107,836 for
projects awarded by FEMA based on the “improved project” criteria, 2 which should be
deobligated and put to better use. Finally, the Library did not take the necessary affirmative
steps to ensure that minority firms, women’s business enterprises, and labor surplus area firms
were used, when possible, for contracted work totaling $1,356,755.

Finding A: Duplication of Benefits

The Library received public assistance grant funding under multiple projects to replace books,
furniture, and equipment damaged by Hurricane Katrina. However, the Library failed to offset
the funding by $2,420,650 worth of cash, books, furniture, and equipment donated for disaster
recovery purposes by the public, library communities, community service organizations, and
other groups. Section 312(a) of the Robert T. Stafford Disaster Relief and Emergency Assistance
Act, as amended, states that no entity will receive assistance for any loss for which financial
assistance has already been received from any other program, from insurance, or from any other
source. Further, FEMA Disaster Assistance Policy 9525.3 states that the use of federal and/or
State funds granted for the same purpose clearly constitutes a duplication of benefits. Grant or
cash donations provided by a private benefactor also may constitute a duplication of benefits.

After Hurricane Katrina, the Library received large donations to assist with the restoration and
rebuilding of libraries within the county that were damaged by the disaster. The donations were
received for specific purposes such as restoring the biology section of Pass Christian library,
replacing lost children’s materials, and rebuilding the libraries. To account for such large cash

2
  An improved project refers to restoration work that involves improvements to a damaged facility while
maintaining the same function of the predisaster facility and at least the equivalent capacity. Federal regulation 44
CFR 206.203(d)(1) limits federal funding for improved projects to the federal share of the approved estimates of
eligible costs.

                                                          2

donations, the Library Board agreed at its June 2006 meeting to set up separate bank accounts for
each library (Pass Christian, Gulfport, and Biloxi) to ensure that the donations would not be used
for other expenses. On August 15, 2006, the Library Board approved a resolution stipulating that
funds donated by the public, library communities, community service organizations, and other
groups would be used primarily for rebuilding library material collections and refurnishing
library facilities to resume pre-Katrina levels of service.

On June 21, 2011, after receiving our request to review the donations received, the Library Board
held a meeting and revised its cash donation policy to state—

         In the event that the funds received from the County, State, and FEMA are sufficient to
         rebuild the library material collections and refurnishing of library facilities, then any
         funds received from private donations to the Harrison County Library System as a result
         of the damage and destruction to the Harrison County Library System facilities, contents
         and collections may be used in the operating budget to return the libraries to pre-Katrina
         level of service and staffing.

According to Library financial records during the period October 2006 through September 2010,
the Library received donations totaling $2,420,650, consisting of cash ($797,260), books
($1,440,715), and furniture and equipment ($182,675) for disaster recovery efforts. 3 However,
the Library did not use the donations to offset FEMA funding received, in part, for the same
purposes as the donations. Therefore, we question $2,420,650 of FEMA funding as duplicate
benefits because the donations were specifically designated for Library material collections and
refurnishing Library facilities damaged by Hurricane Katrina.

Library Response. Library officials did not agree with the finding, saying that the total value of
$2,420,650 assigned to the donations is inaccurate. The officials said that the value of
$1,440,715 assigned to donated books, many of which were used, was based on replacement
costs for new books rather than the actual value of the donated books. They also said that the
donated furniture and equipment was for general public use and not related to the Library’s
disaster recovery efforts. Finally, they said that the cash donations were not specific to
Hurricane Katrina and were used to fund general operating expenses of all library sites, which
was their practice in years prior to the disaster when cash donations were received.

OIG Response. We disagree with Library officials that the values assigned to the donations are
inaccurate. We determined the questioned amount of $2,420,650 based on donated values listed
on the Library’s audited financial statements. After the exit conference, Library officials
provided additional documentation on the donations. We reviewed the documentation and
reduced the questioned costs on furniture and equipment donations by $116,964. This amount is
reflected in the $2,420,650 being questioned in this finding. However, additional documentation
provided for donated books did not change our position, but strengthened it, showing that the
books were in excellent to new condition when donated. The Library may have used cash
donations for general operating expenses as it deemed necessary prior to Hurricane Katrina;

3
  The values of the donations are based on information contained in the Library’s audited financial statements for
the period listed.

                                                         3

however, post-Katrina cash donations were specifically designated for disaster recovery efforts,
as stipulated in the August 15, 2006, board resolution. Further, the Library Board approved and
set up specific disaster recovery bank accounts for the cash donations.

Finding B: Improved Projects

FEMA funding awarded to the Library for improved projects was overstated by $2,107,836. An
improved project refers to restoration work involving improvements to a damaged facility while
maintaining the same function of the predisaster facility and at least the equivalent capacity.
However, while this type of grant provides applicants more flexibility, there are limitations on
the allowable costs. According to FEMA’s Public Assistance Guide (FEMA 322, October 1999,
p. 85), funding for improved projects is limited to the federal share of the costs that would be
associated with repairing or replacing the damaged facility to its predisaster design. Also, on
page 57, the guide states that when equipment, including vehicles, is not repairable, FEMA will
approve the cost of replacement with used items that are approximately the same age, capacity,
and condition. Replacement of an item with a new item may be approved only if a used item is
not available within a reasonable time and distance.

We reviewed the Library’s funding methodology for improved projects. Our review revealed
that the Library made its funding request to FEMA using prices to replace damaged contents
with new items without determining whether used items with the approximate same age,
capacity, or condition were available. Based on the Library’s grant request, FEMA obligated
$4,486,615 of funding for the projects, without validation or performing price comparisons.

To determine eligible funding for the improved projects, we reviewed the Library’s fixed asset
detail report. This report was available to the Library from its annual financial audit and shows
the original purchase and book value prices for books, furniture, and equipment lost in Hurricane
Katrina. The report also identifies values for books as a whole for all library sites and lists
furniture and equipment by each library site and location. Since the Library did not consider
replacing damaged items with similar used items during the project funding process, we used
original purchase prices to estimate eligible project funding. We consider this methodology to
be reasonable since the cost to purchase a used item, in almost all cases, should not be more than
the purchase price of the original item. Using this methodology, we concluded that eligible
funding for the improved projects was overstated by $2,107,836, as shown in table 1. FEMA
should deobligate the $2,107,836 and put it to better use.

                           Table 1: Overfunded Improved Projects
                                   Amount             Original               Funds Put to
            Contents               Awarded         Purchase Price             Better Use
      Books                             $3,217,728            $1,807,940        $1,409,788
      Furniture/Equipment                  865,126               570,839           294,287
      Electronics                          403,761                     0           403,761
              Total                     $4,486,615            $2,378,779        $2,107,836




                                                4

Library Response. Library officials did not agree with the finding, saying that they were never
instructed by FEMA or the State to provide project costs based on replacement with used items
and there was no aftermarket for used books, furniture, and equipment. They also said that
44 CFR 206.226(i), which states that the replacement of library books and publications will be
based on an inventory of the quantities of various categories of books or publications damaged or
destroyed, applies to replacement costs of damaged books and publications rather than FEMA
Publication 322.

OIG Response. We disagree with Library officials that 44 CFR 206.226(i) should be used to
determine the eligible funding amount of damaged books and publications rather than FEMA
Publication 322. 44 CFR 206.226(i) addresses how to determine the quantity of books and
publications that may be replaced. It does not address how the value of replacement costs will be
determined, which is specifically addressed in FEMA Publication 322.

Finding C: Contracting Procedures

Although the Library used competitive procedures to award contracts under the grant, it did not
take the necessary affirmative steps to ensure that minority firms, women’s business enterprises,
and labor surplus area firms were considered for such contracts. Federal regulation requires
subgrantees to take all necessary affirmative steps to ensure that minority firms, women’s
business enterprises, and labor surplus area firms are used when possible (44 CFR 13.36(e)(1)).
The Library awarded contracts totaling $1,356,755 under Projects 602 ($395,008) and 9808
($961,747). Contract files that supported Project 602 for restoration of books and other contents
and Project 9808 for Pass Christian Library Circulating and Non Circulating Collections
contained no evidence that the Library considered minority firms, women’s business enterprises,
or labor surplus area firms as potential sources for the contract work. Library officials also
confirmed to us that no steps were taken to include such businesses in solicitations. Therefore,
we question the $1,356,755 awarded for the contract work because the Library did not follow
proper federal procurement requirements. This amount includes $1,222,945 of costs we
questioned under findings A and B. Therefore, the net amount questioned for this finding is
$133,810: $38,958 under Project 602 and $94,852 under Project 9808.

Library Response. Library officials said that they were unaware of the requirement to take
affirmative steps to ensure that minority firms, women’s business enterprises, and labor surplus
area firms are used when using federal funds to procure goods and services. Additionally, they
said that they would not have addressed the procurements any differently given the
circumstances of the disaster and time constraints they faced at the time the contracts were
awarded.

OIG Response. Library officials were notified of post-award procurement requirements. Library
officials executed a signed agreement with the State prior to the grant award, which included a
stipulation that the Library must comply with all applicable provisions of federal and State laws
and regulations relating to procurement of goods and services.




                                                5

                                   RECOMMENDATIONS


We recommend that the Regional Administrator, FEMA Region IV:

       Recommendation #1: Disallow $2,420,650 of ineligible duplicate benefits received
       under multiple projects as a result of cash and other donations received for disaster
       recovery efforts (finding A).

       Recommendation #2: Deobligate and put to better use $2,107,836 of overstated FEMA
       funding obligated under multiple improved projects (finding B).

       Recommendation #3: Disallow $133,810 of costs awarded for contracts that were not
       procured in accordance with federal procurement requirements, unless FEMA makes an
       affirmative decision that the contract awards were fair and waives the procurement
       requirement (finding C).


            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with Library, State, and FEMA officials during our audit. We also
provided a written summary of our findings and recommendations in advance to these officials and
discussed them at the exit conference held on November 29, 2011. Library officials disagreed
with our findings. Their comments, where appropriate, are included in the body of the report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination. Significant contributors to this report were David Kimble,
Larry Arnold, Mary James, and Alicia Lewis.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6702.

cc:	   Administrator, FEMA
       Audit Liaison, FEMA Region IV
       Audit Liaison, FEMA Mississippi Recovery Office
       Audit Liaison, FEMA (Job Code G-11-042)
       Audit Liaison, DHS


                                               6

                                                                                                               EXHIBIT

                                       Schedule of Projects Audited

                                      August 29, 2005, to May 19, 2011

                                      Harrison County Library System

                                    FEMA Disaster Number 1604-DR-MS


                                                                                Amount        Funds Put to      Amount
    Project                                        Amount        Amount        Questioned      Better Use      Questioned
    Number                Project Scope            Awarded       Received     (Finding A) 4   (Finding B) 5   (Finding C) 6
     602      Restoration of Books and Other       $395,008       $403,497       $178,954        $177,096          $38,958
              Contents
     9422     Pass Christian-Furniture/Interior      146,301       147,764          66,280          65,292               0
              Fixtures
     9477     Pass Christian –                        67,703        68,380          30,672          67,703               0
              Computers/Electronics
     9513     Gulfport – Microfiche Archived         461,505       349,590        209,080         206,909                0
              Periodicals
     9808     Pass Christian –                       961,747       443,222        435,710         431,185           94,852
              Circulating/Non-Circulating
     6644     E. Division St. Community Center –     $96,288        98,214          43,622          43,169               0
              Books
     6990     Biloxi – Books                        1,024,597      126,666        464,183         459,363                0
     7866     E. Division St. Community Center –       59,103            0         26,776          59,103                0
              Furnishings
     7936     Gulfport – Books, Furnishings, and    1,313,454            0        595,047         (47,781)               0
              Fixtures
     9514     Biloxi – Computers and Electronic      185,070             0          83,844        185,070                0
              Equipment
     9515     Gulfport – Electronics/Computers       150,988             0         68,404         150,988                0
     9642     Biloxi – Furnishings and Fixtures      276,017             0        125,047         217,673                0
     9786     Biloxi – Non-Circulating Reference     205,348             0         93,031          92,066                0
              Collections

    Totals                                         $5,343,129    $1,637,333    $2,420,650      $2,107,836        $133,810




4
  Donations consist of cash, books, furniture, and equipment. We allocated the $2,420,650 of questioned costs

related to finding A based on the percentage of each project’s award amount to the total award amount. However, 

the Library, State, and FEMA should decide to which projects the donations should be applied. 

5
  The Library’s book inventory is lumped together as one total for all sites/locations. There are multiple projects

(602, 9513, 9808, 6644, 6990, and 9786) to which the $1,409,788 of overstated improved project funding for 

replacement of books could be assigned. We allocated the questioned costs based on the percentage of each

project’s award amount for books to the total amount awarded for book replacement. However, the Library, State, 

and FEMA should decide to which projects the questioned costs should be applied. 

6
  Questioned amounts for Projects 602 and 9808 under finding C were determined by subtracting the totals of

findings A and B from the respective projects’ total award amounts.

                                                            7

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
